C=y

No.

IN THE

U:

S.'S3

SUPREME COURT OF THE UNITED STATES

QUINTIN IRVTNG BROWN

— PETITIONER

(Your Name)

Supreme Court, U.S.
FILED

vs.

C0tgj<gi9v^akfck.-;grfi Virginia— respondent(S)

MAY 1 \ 2020
office

ON PETITION FOR A WRIT OF CERTIORARI TO

—— ------------

SUPREME COURT OF VIRGTNTA______

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

-Ouintin Irving Brown
(Your Name)
Dillwyn Correctional Center
P-O- Box 670 / 1522 Prison Road
(Address)

Dillwyn. VA 23936-0670
(City, State, Zip Code)

(434) 983-4700
(Phone Number)

OF THE CLERK _

QUESTION(S) PRESENTED
r, DID

the

COMMONWEALTH

of

VIRGINIA IWAl

court

i)£MV

MR.13ROWU H'S COMSTltTUTIbWAL RIGHT TO JURY TRIAL ON Ttffc
MVSOEIAEAMOR CHARGES OP ReCJ&WtWC STOLEN PROPERTY

AND

PALSE lOENTi PlCAf»OKS AT T ER.”" p ei_Q NY—COKW i OTTO NT—W&R&SE T
AS^DE?

JX. DVO

the

COMMONWEALTH OP

(v\r. 0R.OVJN'S

CONST ITOT tONAU

ANO l£^UAU

attea awarding

APPELLATE COURT V»OLAJ6

RIGHTS IN ROUNC tIbio 48 /M7*0

ORDERS OP THE TRIAL

THE R.E'S6NT£NC.lNG
qP uAW

VVRGiNiA

Court WITHOUT 006 PRICES*

PROTECTION OP the laws

V-UTHOOT A HEAR*«G

A VsifOTOe CEATloRAfU?

J

ili

LIST OF PARTIES

All parties appear in. the caption of'the ease on~tlxe~Tgoyer~page:—1
------1
r ^__CITY OF RICHMOND and COMMONWEALTH OF VIRGINIA
[ ] All parties do not appear in the caption of the case on the cover page. A list of
a 1 parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

2

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

■nnrmnvi'inT

Trrri'iTivBTti

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

.4-

REASONS FOR GRANTING THE WRIT
CONCLUSION

25

i

INDEX TO APPENDICES
APPENDIX A

.

Febru.3-«~y

APPENDIX B

, 2.02.0

Su.pr-^.rn'a Cou-r-'t Of \l ir-opn't*. ctppe&i le C.'* s*« 0«">

-fch

12 , 2.013

Cou^-b Of V.VjjV.*

3ANCjjrd of W<-;t 6f £,e*-

APPENDIX C

2oi 3

V-lnjUnf* Void M faiizij

APPENDIX D

ZS^L^lB
APPENDIX E

/n-z^ 44^ tpis

^

Df V ^/mr a,

APPENDIX F

-21

€i\

i

table of authorities cited

CASES

Sh*r«^ V.

V;ri,n,v

Stow, 35C. u.s. 3fcg „0/1Jn)

^

»...!£ u

5Ke—V. U„;W Shilx*, 78 S.ct,g7i^7^~
iW-Tw&n V, Lln;W irhcks, 2- L.Ed,2,d

PAGE NUMBER
14-2.3

C-iQs^y

Vl^Wt Code § 19,2 -il
ViVj?rt;vC©«U §
V.VyrT,* Cade § 18,Z- 1 gG. 3

STATUTES AND RULES

4

V'r3>^‘^ Code §4C,2.-£13
Vir9miv Code § 4-G.2.-Sl7(B)

17
10,13

S up re«-n,e Court 0£ V/‘i a. K,t4e 1: i

5 wpr-e/ne C.©u»-t £>£
5u.pre»vve Covu-t 0-f- V

12

Rule
t rxi2>- Rule §125

13,18
13

OTHER
In 1958, Justice Frankfurter

stated what I interprete as "The
integrity
of the Commonwealth Of Virginia has been
abridged, revoked or diluted. *■
S heon^ v. AW-W
C^W^)

iv

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix Jk___to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
Iyf is unpublished.
The opinion of the KlgUgh ahaf-c ccwt, PaUU&n,
Myth Of dar-bvorawv 0ir^. n-h=>/-\
appears at Appendix
__ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[*f is unpublished.
1.

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_____________ ,____ (date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was February
A copy of that decision appears at Appendix A
.

.

[v/Ta timely petition for rehearing was thereafter denied on the following date:
------ , and a copy of the order denying rehearing does not
appears at Appendix
\yfAmqatenCTon of time IcEfifeg^fee petition for
a writ of certiorari was granted
to and including AujLV<t 12 ^ £01$ (date) on --------------------- (date) in staAe
Application No. __ ,1 iqoT?4The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

z

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

r

The Bill Of Rights of the Constitution of the United States Of America
United Stages C,Or,$4'itciddon
Pive
Onited
U

A"'<z-»vlrne.i\±
SL^bei C.o rv&Vi'b uut»On A me.rvd'vl«Jii, Nm-e

~

£-fc-*.-fce.s Cons'ki'fcujblen A'n^vne'd:' Foj Clxu-ie.

3

STATEMENT OF THE CASE
Monday, June 22, 2015, Quintin Irving Brown wais arrested on 3 felony
charges and 3 misdemeanor traffic offenses in the City Of Richmond,
Virginia. On July 28, 2017, he was convicted of all offenses. Prior
to trial, Brown mailed a Motion For Withdrawal Of Counsel/(And For)
Speedy Trial to the Circuit Court requesting withdrawal of counsel
and for trial before the expiration of state statutory speedy trial
code § 19.2-243, by July 1, 2017 that was filed June 14, 2017.
Within 21 days of conviction, Brown filed pro per motions to set
aside the judgment signed February 20, 2018, and counsel went to
another job at the City Attorney’s Office. Another court-appointed
counsel made appearance at the March 13, 2018 Hearing of the Motion
To Set Aside before a replacement judge not familiar with the
cases,
and there was a rescheduling of the cases for April 23 , 2018. At the
April 23, 2018 Hearing counsel conceded Brown's speedy trial rights
without his consent, in an act of ultimate betrayal to his disbelief.
The Motion To Set Aside was granted on the other issues, and without
retrial (by jury) the misdemeanor charges became 5 misdeanors instead
of three, yet 3 years supervised probation/suspended sentences were
imposed on each of the two new misdemeanor-reduced charges exceeding
the maximum state statutory code 12 maximum imposable (§ 18.11).
When heard by the Supreme Court Of Virginia, the record had been
falsified to show that trial occurred on June 28, 2017, when in
actuality trial occurred on July’28, 2017.
Brown has an estimated release date of July 28, 2020; however,
if his credits were properly calculated Brown would be eligible for
release on JULY 28. 2019, (NEXT MONTH).
tuX iVlOuU t>«. ) /V)

aXcV y

S'fcaie Of Ey
.

1*202.1,
Eij-Vy Relz&sz. Pi

c*/l.

NATURE OF THE CASE AND MATERIAL PROCEEDINGS BELOW
Quintin Irving Brown, hereafter “Mr. Brown,” was charged with one
count of felony false identification, second or subsequent offense, CR15F5106; one count of felony eluding a law enforcement officer, CR15F-5107;
one count of felony receiving stolen property CR15F-5052; and numerous
traffic misdemeanors and infractions.2 Mr. Brown’s trial was ultimately set
for July 28, 2018, before the Honorable Judge C.N. Jenkins, Jr., of the
Richmond City Circuit Court.
Prior to trial on July 28, 2018, Mr. Brown filed a motion to quash the
false identification indictment, alleging it was brought by faulty procedure
through the General District Court, instead of the Juvenile and Domestic
Relations Court. This trial court granted the motion to quash, and quashed
the indictment for false identification, second or subsequent at that time.
Following a trial on the remaining counts Mr. Brown was convicted, and a
sentencing hearing was set.
/

On September 5, 2017, Mr. Brown was re-indicted with false
identification, second or subsequent offense, CR17F-32Q1. This indictment
2 The traffic infractions included failing to obey a highway sign, failing to
obey a traffic signal, and a misdemeanor charge of driving with a
suspended driver’s license. Those convictions are not challenged in this
appeal.

alleged the same crime as the indictment quashed prior to trial on July 28
2017. This second indictment was set for trial prior to sentencing on
January 30, 2018.
OnJanuary"3f3;i2018,theHonorableJudge6.N;Jenkins;Jr.
presiding, Mr. Brown was convicted of the false identification second or
subsequent offense. Mr. Brown was then sentenced on all charges. The
trial court sentenced Mr. Brown to a four-year active sentence on the
eluding charge; a five year all suspended sentence on the felony receiving
stolen property charge; a five year all suspended sentence on the false
identification, second or subsequent charge; and a ten day active sentence
on the driving on a suspended license charge. Mr. Brown received fines on
the remaining traffic infractions. The final sentencing orders in all cases
were entered on February 20, 2018.
On March 13, 2018, both sentencing orders were stayed and
suspended, pursuant to Rule 1:1 of the Rules of the Supreme Court of
Virginia. Mr. Brown filed a motion to set aside the verdict pertaining to his
felony receiving stolen property and false identification convictions. These
motions were heard, and granted, by Judge Jenkins on April 23, 2018,
reducing both felony convictions to misdemeanors convictions. A re­
sentencing order was then entered on June 13, 2018, reflecting these
6

' reductions. Mr. Brown was sentenced on these two, new, misdemeanor
convictions to 12 months all suspended on each offense. Mr. Brown now
appeals his convictions to this Court.
STATEMENT OF FACTS
a. July 28, 2017 Trial: Eluding, Receiving Stolen Property, Traffic
Offenses
On June 22, 2015, Capital Police Officer Andrew Sentipal observed a
vehicle in the left-hand turning lane at the intersection of North 14th Street
and Broad Street in the City of Richmond. TT at 16. Normally, there is an
noU-turn sign on the median dividing the six lanes of Broad Street, but at
the time of the stop the sign was damaged and attached to a sawhorse
where the permanent sign should be. TT 17-18. Officer Sentipal observed a
vehicle a car length in front of him in the left lane of this intersection make a
U-turn at the red light. TT 18. Mr. Brown was later determined to be the
driver of this vehicle. TT 18, 24. Officer Sentipal had a vehicle camera, or a
“dash-cam,” running that day and that was submitted as Commonwealth’s
Exhibit #2 at trial. TT 19, 34.
Officer Sentipal initiated a traffic stop, and Mr. Brown promptly pulled
over right before the on-ramp to Interstate 95. TT 18, 36. When Officer
Sentipal asked him for his license and registration, Mr. Brown told the
officer he had neither his license nor registration with him, but he provided

l

the officer with the name “Willy James,” along with a birth date and a Social
Security number. TT 25.
When Officer Sentipal went back to his car to verify the information
Mr. Brown provided; Mr: Brown drove away onto Interstate 95; TT 25.
Officer Sentipal activated his emergency equipment, including his sirens
and emergency lights, and pursued Mr. Brown for several miles on the
interstate. TT 26. There was heavy traffic on Interstate 95, in the City of
Richmond. TT 27. But the traffic lightened as the pursuit continued into
New Kent County on Interstate 64. TT 27.
Officer Sentipal described Mr. Brown’s driving during the pursuit as
“reckless.” TT 27. The officer also testified that during the pursuit Mr. Brown
had committed multiple lane change violations and occasionally drove on
the shoulder of the interstate. TT 27. According to Officer Sentipal, the
pursuit caused other motorists to move out of the way, and Mr. Brown had
cut off some people since they were not moving out of the way. TT 41.
However, Officer Sentipal also testified that he believed most people were
getting out of the way “because of [his] lights and sirens.” TT 41. Officer
Sentipal did not know the speed of the pursuit because he was focused on
the road. TT 28. Officer Sentipal only testified to a speed of 120 miles per
hour when the pursuit was on Interstate 64, which he had previously
8

'

testified to was in New Kent County. TT 28. Officer Sentipai further clarified
the lane changes, “and all that stuff,” were in Henrico. TT 28-29. The dashcam video shows Mr. Brown’s vehicle changing lanes on Interstate 95, and
using the shoulder ofthe Toad7'but_does“Tiot_show high rates of speed, or
vehicles slamming on brakes to avoid Mr. Brown. Commonwealth’s Exhibit
#2.
After a fifteen-minute pursuit, Mr. Brown voluntarily pulled over on
Interstate 64 in New Kent County and exited his vehicle with his hands up.
TT 29. Officer Sentipai handcuffed and arrested Mr. Brown, and conducted
a search of his person and vehicle with Officer Mulheim. TT 29. Inside the
vehicle were three sets of license plates, two of which were temporary
paper tags and the other a set of real permanent plates. TT 31. The license
plates were in the backseat and trunk of the vehicle. TT 38. The vehicle
itself was messy inside. TT 40. The owner of the vehicle also found trash
bags of mail and bank statements belonging to Mr. Brown in the trunk of
the vehicle. TT 44. There were also two wallets found on Mr. Brown’s
person—one belonging to him, and the other belonging to Willy James,
whom Officer Sentipai later learned was Mr. Brown’s brother. TT 30. Officer
Sentipai returned Mr. Brown’s wallet, but seized Willy James’s wallet as
well as the license plates not registered to Mr. Brown. TT 31-32. There did
9

not appear to be any signs of tampering inside the vehicle. TT 31. Officer
Sentipal recovered the key to operate the vehicle once Mr. Brown was
detained. TT 40.
~ “Officer SentipalTan a llT)f the'license plates and'found thetwcsets of
temporary tags came back clear, but the set of permanent plates belonged
to a vehicle reported stolen on June 4, 2015. TT 31. The plates physically
on on the vehicle were registered to Mr. Brown. TT 39. Officer Sentipal also
ran Mr. Brown’s driving record and noted multiple driving convictions, with
at least three driving while suspended convictions. TT 32. Mr. Brown’s
driving record was introduced, without objection, as Commonwealth’s
Exhibit #1. TT 33. Officer Sentipal proceeded to cross-reference the VIN
associated with the permanent plates, found inside of the car that were
connected to a stolen vehicle, with the VIN of the vehicle Mr. Brown drove.
TT 32. He found that the VINs matched. TT 32. The vehicle, a 1992 or
1993 Toyota Camry, belonged to a Joshua Meyers. TT 43.
b. January 30, 2018 Trial: Identity Theft
The case tried on January 30, 2018 concerned the charge of identity
theft (second offense) against Mr. Brown. Trial Transcript 1/30/20183 at 5.

References to the trial transcript of January 30, 2018 will hereafter be “Tr
1/30/2018 at
, and to the trial transcript of April 23, 2018 will be “Tr.
4/23/2018 at

When Officer Sentipal approached Mr. Brown’s vehicle following his
pursuit, he asked Mr. Brown for his license and registration. Tr. 1/30/2018 at
15-16. Mr. Brown informed the officer that he did not have his license or
“

registratiom7butth#?‘fi1smame_was_I‘WillyTJames”witlradate"ofbirthofJuly
12, 1938 and provided a Social Security number that the officer was later
able to link to Mr. Willy James. Tr. 1/30/18 at 17. Once Mr. Brown was
arrested, the officer asked what his real name was, at which point Mr.
Brown provided the name of Quintin Irving Brown. Tr. 1/30/18 at 18.
Following Officer.Sentipal’s testimony, the Commonwealth moved to enter
a certified copy of his prior identity fraud into evidence. Tr. 1/30/2018 at 19.
Over Mr. Brown’s objection, the Court entered the certified document into
evidence. Tr. 1/30/2018 at 19-20. The trial court found Mr. Brown guilty of
identity theft to avoid arrest, second offense, in violation of Va Code § 18.2186.3, subsection D. Tr. 1/30/18 at 24.
On April 23, 2018, Mr. Brown argued a motion to set aside his felony
convictions for receiving stolen property and felony false identification. Mtn.
Set Aside, filed 4/12/2018. These motions were conceded by the
Commonwealth, and the trial court entered new findings of guilt for
misdemeanor offenses of receiving stolen property and misdemeanor false
ileach'o« .

Tr,

g..

id

REASONS FOR GRANTING THE PETITION
1. Petitioner Quintin irving Brown, Virginia prisoner number 1146667
would be released from imprisonment
26^9instead of the July 28, 2020 estimated release date, if the State
Of Virginia Department Of Corrections would correctly compute the
setneces imposed (4 years, 10 days-^-Richmond; time served (179
days--Portsmouth-,concurrent with Richmond; and 90 days served in
New Kent (18-9447 of this Court) without jurisdiction).
2* Petitioner was rendered inadequate, incompetent

ineffective

assistance of counsel and denied the opportunity to self-represent
at trial when dissatisfied with counsel.
3. The Commonwealth Of Virginia's integrity has been abridged , revoked
and diluted by deceit, deception, misrepresentation, extrinsic and
intrinsic fraud by exceeding the maximum sentences imposed by law
and violating its own speedy trial rights statutes §§ 18.2-11 and §
19.2-243 of Virginia Code.
4. The misdemeanor charges

imposition of 3 years suspended time and

supervised probation exceeds the maximum. 12 months authorized by
law for Commonwealth Of Virginia statutory law § 18.2-11 of the
Code Of Virginia 1950.
5. The proper crediting of the sentences would entitle the petitioner
to release from incarceration within the next month and a half on
JULY 29, 2019, rather than the present estimate of July 28, 2020
because the record does not speak the truth.
6. The judgment of the City Of Richmond Circuit Court was void ab
initio and coram non judice because the Court was
without authority
to try the cases outside of prosecutorial limitations ststed in
state statutory law.

VL

ASSIGNMENTS OF ERROR
The trial court erred in finding Mr. Brown guilty of receiving
stolen property as there was insufficient evidence that Mr.
Brown knew the vehicle he was driving was stolen.
This issue was preserved by Mr. Brown’s Motion to Strike, Trial
Transcript 7/28/20181 48-50, denied by the trial court, TT 52; and
by Mr. Brown’s Renewed Motion to Strike, TT 55-56, 57-59,
denied by the trial court, TT 62.
II.

The trial court erred in finding Mr. Brown guilty of felony
eluding as there was insufficient evidence that Mr. Brown
drove in a manner that interfered with, or endangered, the
operation of the law-enforcement vehicle or a person, in the
City of Richmond.
This issue can be heard by this Court under the ends of justice
exception to Rule 5A: 18.

III.

The trial court erred in convicting Mr. Brown of lesserincluded misdemeanor offenses of receiving stolen property,
and false identification, following Mr. Brown’s Motion to Set
Aside the Verdict without determining if Mr. Brown knowingly,
and intelligently, waived his right to a jury on those two, new
misdemeanor offenses.
This issue can be heard by this Court under the ends of justice
exception to Rule 5A: 18, or- Rude.$:2.$,

1 References to the trial transcript for July 28, 2018 will hereafter be
referred to as “TT .”

U

identification.

Tr.

4/23/2018

at 6-8;

Re-Sentencing Order,

entered

6/13/2018.
ARGUMENT
I. There was insufR^i#ift%vidence Mr. Brown knew the car he was
driving was stolen.
STANDARD OF REVIEW
This Court reviews a challenge to the sufficiency of the evidence in
the light most favorable to the Commonwealth, giving them all reasonable
inferences. Higginbotham v. Commonwealth, 216 Va. 349, 353, 218 S.E.2d
' 534, 537 (1975). But this Court must reverse the conviction if it is “plainly
wrong or without evidence to support it.” Id.
ARGUMENT
The Commonwealth failed to prove Mr. Brown knew the vehicle he
was driving was stolen. In order to convict Mr. Brown of receiving stolen
property the Commonwealth was charged with proving that Mr. Brown did
unlawfully receive the vehicle, “knowing that the property had been stolen.”
R. at 82 (Indictment); Shaver v. Commonwealth. 30 Va. App. 789, 800, 520
S.E.2d 393, 399 (1999). Guilty knowledge is an essential element of
receiving stolen property. This requires actual knowledge, not constructive
knowledge, that the goods received were stolen. Lewis v. Commonwealth.
225 Va. 497, 503, 303 S.E.2d 890, 893 (1983). As there was no admission

i4

by Mr. Brown he knew the vehicle was stolen, this actual knowledge must
necessarily be proved by circumstantial evidence. Id. Circumstantial
evidence is only sufficient when it “exclude[s] every reasonable hypothesis
except that of guiir^vefrat 801, 520 S.E.2d at 399.
In this case, the Commonwealth could not rely on any “recent
possession” presumption regarding Mr. Brown’s knowledge of the vehicle
as stolen as the vehicle was stolen ten days prior to when Mr. Brown was
found in possession of it. TT 42. Mr. Brown was not in possession of the
stolen vehicle “within hours of its theft.” Bynum v. Commonwealth, 23 Va.
App. 412, 420, 477 S.E.2d 750, 754 (1996) (noting the defendant’s
possession of the stolen vehicle “within hours of its theft” was significant
circumstantial evidence to prove he had guilty knowledge of the vehicle as
stolen). Or even with a few days of the theft, but rather ten days after the
fact. TT 42.
There is also no evidence in the record that Mr. Brown purchased the
vehicle in a suspicious manner. In Shaver v. Commonwealth, the defendant
stated that he purchased the all-terrain vehicle (ATV) for a “patently low
price.” ]d at 801, 520 S.E.2d 393 at 399. This Court held that these facts
supported the inference that the defendant knew the property was stolen.
Id. Here, there is no evidence about how Mr. Brown came into possession

15

of the vehicle, or that he acquired the vehicle by circumstances that should
have made him believe the vehicle was stolen. There was no damage to
the car, other than it being rather old. There was also no indicia on the
vehicle itself that if hatf'been stolen. Cf. Snow v. Commonwealth. 33 Va.
App. 766, 776-777, 537 S.E.2d 6, 11 (2000) (noting popped ignition of the
stolen vehicle as factor establishing defendant’s guilty knowledge that
vehicle was stolen). In fact, Mr. Brown had a key to the vehicle that was
recovered by the officer at the scene. TT 40. This certainly indicated Mr.
Brown believed he was in rightful possession of the vehicle.
The trial court relied on three circumstances to find Mr. Brown knew
the vehicle he was driving was stolen: that he was in possession of the
vehicle, the license plates and mail in the vehicle, including those belonging
to Mr. Brown, and the fact that Mr. Brown evaded the police. TT 65-66.
However, these circumstances do not exclude the reasonable hypothesis
of innocence that Mr. Brown did not know the vehicle was stolen: Mr.
Brown’s actions in eluding police could just as likely be because he lacked
a valid driver’s license and/or had not registered the vehicle. And the
presence of Mr. Brown’s own items—including license plates and mail—in
the vehicle is as consistent with his innocence as it is with any alleged
knowledge of the stolen status of the vehicle.
116

The fact that Mr. Brown attempted to evade police is not dispositive
that he knew the vehicle he was driving was stolen. Mr. Brown’s multiple
driving convictions suggest that it could be just as likely, if not more so, that
he fled to avoid aftother conviction for driving with a suspended license.
This hypothesis of innocence is supported by the fact that when Mr. Brown
initially complied with the traffic stop, Mr. Brown provided the name and
identifying information of his brother, Willy James. TT 30. This supports an
inference that Mr. Brown provided this erroneous information because he
knew he did not have a valid driver’s license, and was attempting to avoid a
new arrest for his driving violation by relying on his brother’s identifying
information. This is a reasonable hypothesis of innocence that is not
excluded by the circumstantial evidence in the case. Additionally, there is
also the possibility Mr. Brown evaded police because he had license plates
on the vehicle not connected to that vehicle— a traffic infraction.4
The presence of the license plates themselves, in the vehicle, and
affixed to the vehicle, also fail to be dispositive of whether Mr. Brown had
guilty knowledge about the car being stolen. Since there are no facts as to
when Mr. Brown received the car, it could also be the case that Mr. Brown
simply failed to timely register the car in his name. It could also be the case
4 Virginia Code §46.2-613 renders it a Class 2 misdemeanor to affix license
plates issued for another vehicle.

1-T
in

that Mr. Brown couldn’t afford the DMV’s registration fee, given his
indigency.5 This would explain the license plates being registered to a
different vehicle, and the use of old plates on the car itself.
The fact that Mr. Meyers’s license plates were inside of the vehicle’s
trunk is also not necessarily indicative of guilty knowledge. Considering the
vehicle’s age and condition and the time between the theft and Mr. Brown’s
arrest, it is not unlikely to find a set of loose license plates in a car that has
had multiple owners. The Commonwealth, in other words, has failed to rule
out the reasonable hypothesis that Mr. Brown acquired this vehicle in good
faith. Certainly, the presence of Mr. Brown’s mail and bank statements in
the trunk of the vehicle indicated Mr. Brown believed the vehicle to be
permanently his, and not illegally obtained. TT. 30. Mr. Brown’s personal
possessions in the vehicle would be inconsistent with his intent to keep the
vehicle only temporarily, or with a knowledge the vehicle was stolen. The
circumstantial evidence was insufficient to sustain the element of actual
knowledge from Mr. Brown that the vehicle he was driving was stolen
therefore the trial court erred in denying his motions to strike.

5 It costs $40.75 to register a passenger vehicle in the Commonwealth of
Virginia. Department of Motor Vehicles, available at
https://www.drnv.virginia.gov/webdoc/pdf/dmv201 .pdf (last visited,
September 16, 2018).

18

II. The trial court erred in finding Mr. Brown guilty of felony eluding as
there was insufficient evidence that Mr. Brown drove in a manner that
interfered with, or endangered, the operation of the law-enforcement
vehicle or a person in the City of Richmond.
Standard of Review
This Court reviews a challenge to the sufficiency of the evidence in
the light most favorable to the Commonwealth, giving them all reasonable
inferences. Higginbotham v. Commonwealth. 216 Va. 349, 353, 218 S.E.2d
534, 537 (1975). But this Court must reverse the conviction if it is “plainly
wrong or without evidence to support it.” ]d.
Argument
Mr. Brown did not drive in a manner consistent with a conviction of
felony eluding. In order to convict an individual of felony eluding, the
Commonwealth must prove that Mr. Brown, “drove... in a way that
interfered with or endangered the operation of the law enforcement vehicle
or in a way that endangered a person.” R. at 81 (Indictment); Jones v.
Commonwealth. 64 Va. App. 361, 367-68 768 S.E.2d 270, 273 (2015). The
difference between felony eluding and misdemeanor eluding is whether an
individual endangered the operation of a law enforcement vehicle or
endangered a person. ]d. at 367, 768 S.E.2d at 273.

14*

i. Mr. Brown’s driving behavior of 120 miles per hour, and multiple
lane changes, did not occur in the City of Richmond.
The trial court in this case specifically focused on the finding that Mr.
Brown put the officer’s life in jeopardy by going at high rates of speed in
finding evidence sufficient of felony eluding. TT. 64-65. But this evidence
was insufficient to sustain a felony eluding charge, specifically when the
high rate of speed of 120 miles per hour by the officer did not occur in the
City of Richmond. TT 27, 28.

It is also true that Officer Sentipal testified

that Mr. Brown did not conduct the “multiple lane changes” he observed
until the chase was in Henrico County. TT 41.
In Thomas v. Commonwealth, this Court addressed a similar scenario
where a defendant committed misdemeanor eluding in two contiguous
jurisdictions, but did not commit felony eluding in the jurisdiction where he
was prosecuted. 38 Va. App. 319, 326, 563 S.E.2d 406, 409 (2002). In
Thomas, the accident that caused injury to a driver of another vehicle,
occurred in a different jurisdiction.6 Here, as well, some the elements that
allegedly elevated Mr. Brown’s driving behavior to a felony offense did not
occur in the City of Richmond: his 120 miles per hour and multiple lane
changes. It was error for the trial court to consider these factors in
6 Thomas was decided under a previous version of Virginia Code §46.2817 where bodily injury elevated the offense from a misdemeanor to a
felony. See Va. Code 46.2-817 (B) (1999).
1%
20

v

convicting Mr. Brown, as they were not properly within the City of
Richmond.
ii. Mr. Brown’s driving behavior in the City of Richmond did not
endanger the officer, or a person, as required under felony
eluding.
In Jones v. Commonwealth, the defendant drove away after being
stopped by police while both officers were still partially inside of Mr. Jones’s
vehicle. 64 Va.-App. at 364, 768 S.E.2d at 272. As a result, one of the
officers was forced to run alongside the car for about twenty feet before
ultimately falling onto the road. jcL at 365, 768 S.E.2d at 272. The
defendant drove over the curb, and the car “flew in the air.” Id at 365, 768
S.E.2d at 272. This Court held the defendant’s conduct supported a
conviction of felony eluding, in part, because he endangered the officers by
driving away while they were still partially inside of the vehicle and making
a number of “unsafe maneuvers.” Id. at 369, 768 S.E.2d at 274.
In Tucker v. Commonwealth, a state trooper tried to initiate a traffic
stop, but the defendant fled, passed three cars over “double solid lines” on
a two-lane highway, ran a red light, lost control of his vehicle, traveled in
excess of 105 miles per hour, and crashed into a tree. 38 Va. App. 343,
344_45_ 564 S.E.2d 144, 145 (2002). He then got out of his car and ran into
the woods. Id. at 145. The court held in Tucker that the defendant’s driving

Zl

and subsequent collision “clearly endangered” both the Trooper and other
motorists. Id. at 344.
Mr. Brown’s case is fundamentally different from Tucker, where the
defendant crossed double solid lines to pass three cars on a two-lane
highway, lost control, and crashed into a tree, see Tucker, 38 Va. App. at
343, or Jones, where the defendant drove away while law enforcement
officers were inside his vehicle. Jones, at 365, 768 S.E.2d at 272. Mr.
Brown did not endanger the life of Officer Sentipal or other motorists when
he drove away from the police stop.
Rather, what did occur in the City of Richmond is what the dash-cam
video shows: Mr. Brown switching lanes, and driving on the shoulder to exit
onto Interstate 64. The dash cam does not show other cars having to slam
on their breaks, or veer aggressively to get out of Mr. Brown’s way. In fact,
Officer Sentipal testified that while he observed vehicles get out of Mr.
Brown’s way, he believed that was because of his lights and sirens. TT 41.
Mr. Brown never drove onto oncoming traffic, nor did he cross any double
yellow lines. Officer Sentipal also conceded he could not determine Mr.
Brown’s speed initially because he was focused on the road. TT 28. Mr.
Brown also never lost control of his vehicle, or caused an accident, either to
himself or anyone else. In fact, he voluntarily pulled over on the median of
17

ll

the interstate after a period of time in New Kent County. TT 29. Given these
facts, Mr. Brown’s conduct, as it occurred in the City of Richmond, did not
endanger the lives of the officers involved or other motorists. Therefore, his
conviction for felony eluding must be reversed.
r*

iii.

'

This Court should invoke the ends of justice exception to
reach the error in this case.
This Court can consider this issue under the ends of justice exception

to Rule 5A:18. Mr. Brown did not argue the sufficiency of the evidence for
the eluding charge in the trial court, or that the trial court could not consider
the actions by Mr. Brown that did not occur in the City of Richmond.
However, endangering a person, or the law enforcement officer, is an
element of this offense. Va. Code §46.2-817 (B). And there is affirmative
evidence in the

record this element did

not occur.

Redman v.

Commonwealth. 25 Va. App. 215, 221-22, 487 S.E.2d 269, 273 (1997)
(noting that to invoke the ends of justice exception “the appellant must
demonstrate...the record must affirmatively prove that an element of the
offense did not occur.”).
Here, the Commonwealth was charged with proving that Mr. Brown’s
actions endangered the operation of the law-enforcement vehicle or
endanger a person. The evidence in the record is that, in the City of
Richmond, Mr. Brown at worst refused to stop for the pursuing officer,
1#
£3

drove on the shoulder and passed vehicles without using his turn signal.
The Officer testified he did not know the speed initially because he was
watching the road, TT 28, and when he did estimate the speed at 120 miles
per hour this was in New Kent County, not the City of Richmond. TT 27, 28.
The Officer further testified that the lane changes occurred in Henrico
County, TT 28-29, and that vehicles were getting out of the way because of
his lights and sirens not Mr. Brown’s driving. TT 41. There was no accident,
or aggressive maneuvers by Mr. Brown—nor any that he caused from other
drivers. The evidence is that Mr. Brown was eluding police. But there is
affirmative evidence in the record he did not endanger or interfere with the
law-enforcement officer, or endanger a person. Therefore, the ends of
justice exception is appropriately applied in this case to fix this error, and
find the evidence insufficient to convict Mr. Brown of a felony eluding.

III. The trial court denied Mr. Brown his constitutional right to a jury
trial on the misdemeanor charges of receiving stolen property, and
false identification.
Standard of Review
Constitutional arguments are reviewed de novo by this Court as
questions of law. Shivaee v. Commonwealth. 270 Va. 112, 119, 613 S.E.2d
570, 574 (2005).

V&
Z4-

Argument
Both the Virginia and United States Constitution guarantee a
defendant the right to a trial by jury. U S. Const,

amend

VI; Va. Const. Art.

I, §8. In this case, Mr. Brown waived his right to a jury trial for the receiving
stolen property felony charge, as well as the eluding charge and
accompanying traffic offenses.7 Following his convictions for those
charges, as well as the re-indicted false identification second charge, Mr.
Brown filed a Motion to Set Aside the Verdict. Motion to Set Aside, filed
4/12/2018. In the Motion Mr. Brown asked the trial court to “set aside his
convictions” for the receiving stolen property, and false identification
second offense. Id. At the motions hearing the Commonwealth’s Attorney
conceded Mr. Brown’s motion to set aside, stating the prior conviction for
false identification was faulty and did not qualify as a predicate conviction
and that the evidence of value of the allegedly stolen vehicle was
insufficient. Tr. 4/23/2018 at 4-5. Mr. Brown agreed that the two charges
should be reduced to misdemeanor charges. Tr. 4/23/2018 at 5-6. And Mr.
Brown did ask specifically for such reduction in charges. Tr. 4/23/2018 at 56, 7.

7 The record does not show that Mr. Brown ever affirmatively waived his
right to a jury for the September 5, 2017 re-indictment of the false
identification second offense.

2#
15

At no time following this reduction, however, did Mr. Brown enter a
plea, of either guilty or not guilty, to the amended misdemeanor charges
nor was he specifically found guilty by the trial court of the amended
misdemeanor chargisTMr. Brown also did not waive his right to enter a not
guilty plea and be tried by a jury for these two misdemeanor charges. This
Court faced a similar situation in Fitzgerald v. Commonwealth, 31 Va. App.
739, 525 S.E.2d 604 (2000). In Fitzgerald a defendant was convicted of
object sexual penetration after a jury trial. Fitzgerald, 31 Va. App. at 740,
525 S.E.2d at 605. The defendant filed a motion to set aside the verdict,
and the trial court set aside the object sexual penetration conviction, and
sua sponte entered a conviction for misdemeanor assault and battery, over
the defendant’s objection. Id. at 741, 525 S.E.2d at 605. This Court
reversed the misdemeanor assault conviction, holding the trial court
“exceeded its authority” by failing to order a new trial on the lesser offense.
]d. at 605, 525 S.E.2d at 742.
The same scenario is presented here. The fact that Mr. Brown did not
initially ask for a jury trial on the original felony charges is of no import, as
he certainly had the right to demand a jury on the amended, and therefore
new, misdemeanor charges. This is similar to when this Court reverses a
conviction for a felony based on insufficient evidence, but finds there is
215

sufficient

evidence

to

sustain

a

conviction

on

a

lesser-included,

misdemeanor offense. This Court does not, sua sponte, convict the
defendant of the lesser offense, but rather remands the case for a new trial
on that lesser offense. See Gorham v. Commonwealth. 15 Va. App. 673
678-79, 426 S.E.2d 493, 496-97 (1993).
Mr. Brown did not invite this error. Mr. Brown never asked the trial
court to find him guilty of the misdemeanor offense. Cf. Manns v.
Commonwealth. 13 Va. App. 677, 679, 414 S.E.2d 613, 615 (1992)
(holding defendant could not claim error for misdemeanor conviction on
appeal when, at sentencing,

both defense counsel and defendant

specifically asked for the misdemeanor conviction). Defense counsel stated
she did not contest the Commonwealth’s position that the identification theft
second offense “would then be reduced to first offense identity theft, which
is a misdemeanor.” Tr. 4/23/2018 at 5. And defense counsel asked the trial
court to “reduce that [receiving stolen property] to a misdemeanor as well.”
Tr. 4/23/2018 at 6. At no time, however, did defense counsel, or Mr. Brown
request the trial court enter a conviction for a misdemeanor. Rather, in the
written Motion to Set Aside Mr. Brown requested that his convictions be set
aside, not that he be found guilty of lesser-included offenses. Motion to Set
Aside, filed 4/12/2018.

27

Defense

counsel,

the

trial

court,

and

the

Commonwealth’s

discussions about the appropriate sentence do not amount to invited error
in this case. The sentencing discussion simply highlights the trial court’s
implicit finding of guilt on the two lesser-included misdemeanors. This
discussion does indicate that Mr. Brown did not contemporaneously object
to this finding of guilt, and the denial of his constitutional right to a jury trial.
As such Mr. Brown is arguing this Court invoke the ends of justice
exception to Rule 5A:18 to reach the merits of this issue.
The ends of justice does apply here. Rule 5A:18 . Mr. Brown was
denied a number of essential, constitutional rights when the trial court
entered guilty findings to the two misdemeanors without his consent. Mr.
Brown was denied the constitutional right to a jury trial, primarily, which
incorporated his Fifth Amendment right to testify-or not testify-in his own
defense. Denial of essential rights is a factor appellate courts should
consider in applying the ends of justice. See Cooper v. Commonwealth
205 Va. 883, 889, 140 S.E.2d 688, 692 (1965) (invoking the ends of justice
exception where a defendant’s confession was admitted at trial in violation
of the defendant’s constitutional rights). Here, the denial of Mr. Brown’s
right to trial was absolute and egregious, and therefore a manifest injustice.
This Court should invoke the ends of justice exception to Rule 5A:18. and/or
eI ,<£ 5. ra-C*<31 g

to ,

i m

28

3jrv<^

reverse Mr. Brown’s convictions for receiving stolen property, and false
identification, remanding those matters to the trial court fora new trial.
CONCLUSION
For the reasons stated above, Mr. Brown respectfully requests this
Court grant his petition for appeal and reverse and dismiss his convictions
and/or reverse
proceedings.

his

convictions and

remand the case for further

The. petition -f Or a. Wri-t

cer-fciora-ri should b

Respectfully submitted
QUINTIN IRVIN$5 BROWN

By:
Lauren Whitley, VSB #75562

Deploy Public Defende ‘
Office of the Public Def 3nder
701 East Franklin Street—6th Floor
Richmond, Virginia 23219
Telephone: (804) 225-4330 x 111
Facsimile: (804) 371-4908
Email: lwhitley@ric.idc.virginia.gov
SbBSCRieeO AMO SWORN

to

THIS ( OAV OF

BEFORE ME

0‘41 \wvjn

-^02.0

Corr-e-c-ti

CsdsxXfi*

0aie: Tkurs £^^ 2.07a
NOTARY POBUC.

//?<?<(

wt

DAVID LOUIS HAMBY
NOTARY PUBLIC
Commonwealth of Virginia
„ Registration #7845578
My Commission Expires Nov. 30 2023

me
fysiiiiisi £

_______________
K*

........

■"

’ I'*'.

.

J

29
V.
■

•

■

./<

.

